C*

Supreme Court, U.S.
FILED

JUN 0 3 2020
OFFICE OF THE CLERK

IN THE

Supreme Court of the United States

Makeda Haile,
Petitioner
V.

Kaiser Permanente Tysons Corner,
Respondent

On Petition For Writ Of Certiorari
To The United States Courts Of Appeals For The Fourth Circuit

PETITION FOR WRIT OF CERTIORARI

Makeda Haile
Pro-se Petitioner
1955 Columbia pike 13
Arlington, VA 22204
703-867-3389
Hmakeda40@gmail.com

QUESTIONS PRESENTED

Whether The Supreme Court Of The United States and Department Of Justice are going
to discard the evidences, and ignore the violations, while corrupted and ill-intentioned court
employees put our civil justice system on a slippery slope by violating the unalienable,
constitutional and civil right of "the people".

Whether lower court judges can deny the Fourteenth Amendment right "....No state
shall make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States; nor shall any state deprive any person of life, liberty, or property, without due
process of law; nor deny to any person within its jurisdiction the equal protection of the laws."
of citizens.

Whether the lower court judges can deny justice by being willfully blind to violation of
Title VII, Civil Rights Act 1964, as amended. "Discrimination in employment based on certain
characteristics (...religion, sex...)".

Whether the lower courts are "above" the Law, the Rules, the Constitution, and
JUSTICE.

LIST OF PARTIES AND RELATED CASES
The petitioner is Makeda Haile, the petitioner and petitioner-appellant in Jhe courts
below. The respondent is Kaiser Permanente Tysons Corner, the respondent and respondentappellee in the courts below.
Related Cases:
•

The Supreme Court of Virginia: Dismissed Plaintiff-Appellant's appeal for a Right to
Jury Trial (March 11, 2020) Makeda Haile v. Abdul Conteh No. 200238

•

Fairfax County Circuit Court: Denying the motion to reconsider, Makeda Haile v. Abdul
Conteh No.LC-2019-12268 (December 3, 2019)

•

Fairfax County Circuit Court: Denied Plaintiff-Appellant's Motion for a Jury Demand
(November 8, 2019) Makeda Haile v. Abdul Conteh No.LC-2019-12268

•

Fairfax County Circuit Court: Denied Plaintiff-Appellant's Request for a Jury Trial
(October 28, 2019) Makeda Haile v. Abdul Conteh No.LC-2019-12268

TABLE OF CONTENTS
Page
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

2

INTRODUCTION

2

RELEVANT FACTS AND BACKGROUND

7

STATEMENT OF THE CASE

8

REASONS FOR GRANTING THE PETITION

25

CONCLUSION

35

PROOF OF SERVICE

36
APPENDICES

APPENDIX A: The United States Court of Appeals for the Fourth Circuit, Dismissed PlaintiffAppellant's appeal (March 12, 2020) Makeda Haile v. Kaiser Permanente Tysons Corner No. 192251

APPENDIX B: The United States District Court for the Eastern District of Virginia Alexandria
division, Dismissed Plaintiffs Complaint (October 23, 2019) Makeda Haile v. Kaiser Permanente
Tysons Corner, No. l:19-cv-01330-LMB-TCB

TABLE OF AUTHORITIES CITED
CASES

PAGE
NUMBER

Bihun v. AT & T Information Systems, Inc. 13 Cal.App.4th976.(1993)..........................

30

Karibian v. Columbia Univ., 14 F.3d 773, 777 (2d Cir. 1994).........................................

30

Meritor Savings Bank v. Vinson, 477 U.S. 57 (1986).....................................................

28

Miller v. Carnation Co. (1977) 39 Colo.App. 1,564 P.2d 127,132.................................

31

Nichols v. Frank42 F.3d 503 (9th Cir. 1994)............... ..................................................

30

O'hara v. Storer Communications. Inc., supra. 231 Cal.App.3D at P. 1118, 282 (1991)

31

STATUTES AND RULES

STATUTES 28 U.S.C. § 1254(1)

1

STATUTES 28 U.S.C. § 2403(b)

1

STATUTES 28 U.S.C. § 1746

1

STATUTES 42 U.S.C. § 2000e-2000e-17

2, 27

Title VII of the Civil Rights Act of 1964, as amended

2,26,28

U.S. Const. Amend. XIV,

2,25,29

PETITION FOR A WRIT OF CERTIORARI
Petitioner, Makeda Haile, respectfully petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for the Fourth Circuit and the lower court in this
case.

OPINIONS BELOW
The judgment of the United States Court of Appeals for the Fourth Circuit is unpublished
opinion, Makeda Haile v. Kaiser Permanente Tysons Corner No. 19-2251, attached as Appendix
"A1-A3". The United States District Court for the Eastern District of Virginia Alexandria Division
dismissing the complaint attached as Appendix "B1-B5" Makeda Haile v. Kaiser Permanente
Tysons Corner, is unpublished No. l:19-cv-01330 (LMB-TCB)

JURISDICTION
The judgment and opinion of dismissing the complaint by the United States District
Court for the Eastern District of Virginia Alexandria Division were entered on October 23, 2019.
The United States Court Appeals denied review of the decision on March 12, 2020. No
rehearing was sought. The notice (on June 8, 2020) from The Supreme Court of The United
States to resubmit corrected writ within 60 days. [Doc. 49] The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).

The jurisdiction of the Attorney General of the State is invoked under 28 U.S.C. §
2403(b).

The Jurisdiction of the Solicitor General of the State is invoked under 28 U.S.C. § 1746.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fourteenth Amendment to the United States Constitution provides pertinent part:

All persons born or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States and the state wherein they reside. No state shall make
or enforce any law which shall abridge the privilefies or immunities of citizens of the United
States; nor shall any state deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal protection of the laws.
U.S. Const. Amend. XIV.

Title VII, Civil Rights Act 1964, as amended
Discrimination in employment based on certain characteristics (...religion, sex...).
STATUTES 42 U.S.C. § 2000e-2000e-17
INTRODUCION

I, the plaintiff - Appellant Makeda Haile, am a single mother with two minor children.
Here is an overview of the corruption and violation, that I faced for the past three years outside
this case. On February 2019,1 had to go to Fairfax County Circuit Court for child custody and
support, before the trial date the church that I go to was burned, a little later my attorney's
office was burned (I question if these fire incidents are because of me). After that, my attorney
moved to considerably more expensive office, his behavior started changing, he began
examining me to find evidence that can potentially be used against me. For example, when I tell
him that police officer was at my house because of a fight that started by my ex-husband
saying, "if you don't sleep with me, I will sleep with our four-year-old child". My attorney
responded by saying, things have changed now a days, if the four years old child did not oppose
the request there is not much to do, and then he asks me questions like, if I ever hit my
children.

2

The night before the court day, my children (5 and 6 years old at that time) told me that
they have seen a video on their father's phone, how sperm get into a woman. I recorded the
conversation and emailed the situation to my attorney. On the court day both the guardian ad
litem and my attorney said they do not want to hear the recording. At the trial, the father was
not asked any question about it, but I was asked what I said to my children when they told me
how they get exposed to the video. What was additionally disturbing, my phone alarm biped
(around the end of the trial) at 5:30 pm right away the judge's phone alarm biped. Also, the
judge started stepping out of the court room without doing the last step of the trial, the court
employee who was sitting next to him stopped him. My ex-husband had two court translators,
rather than translating exactly what he said, they corrected most of his respond. I try to tell this
to my attorney, he ignored me.

On the day that we signed on the court order. My attorney, my ex-husband's attorney
and I were sitting on a table outside of the court room. I read the court order for the first time
and I requested the other attorney to make multiple corrections/clarifications. For each
correction that I asked, my ex's attorney texted or make a quick call to see if "the father"
agrees. I have lived with my ex-husband for seven years. It is nearly impossible to get a quick
and precise answer from him, let alone multiple questions. I knew she was not talking to him.
After I write that I disagree and sign the court order, I start taking picture of the order that I
signed on. The guardian ad litem snatched the court order from the table while I was in the
middle of taking picture and run into the court room. My attorney and the other attorney
followed her.

3

After a phony trial with a corrupted judge, corrupted lawyers (my and the other
attorney) and corrupted guardian ad litem, I got unjust court order, that the child support that I
was receiving for two children, to be changed from 1,358.00 USD to 415.52 USD a month while
our yearly incomes were unchanged. Using a very confusing explanation and calculation, I am
receiving 390.52 USD per month for two children till now (July 2020). I was ordered to pay
1111.44 $ for the Gradian ad litem. I tried to pay this fee. Both the court, and the guardian ad
litem refused to accept the payment, even though it is on the court order.
The father sent the child, that was in kindergarten at that time (2017), to school with
the same soiled underwear and trouser from previous school day accident.
When the same child showed sever worry and fear that he is going to die, his teachers
requested us to find a solution. The father answered by saying that it is an evil spirit. I made
him see a therapist at Kaiser Permanente, she said it is depression. I know my son has no
depression. I contacted another therapist at "Franconia Family Therapy Center". The therapist
kept on asking me about my background. He was more interested about me than my son. I told
him that I am uncomfortable talking about my upbringing. After a lot of back and forth, he said
my son's fear is because of grief. When I was ready to leave his office. He told me that I am
"Abigail". She is women of God, who was married to a rich but crazy man and after he died, she
married King David. I asked him, how I can be Abigail with unemployed husband? (my ex was
unemployed for the last three years of our marriage) Now I understand that, he was not talking
about my ex-husband.

4

The father repeatedly sent the child to school with no lunch. And refused to send the
younger child to pre-school, that I was paying around 250 USD per week, because of the child's
need to practice social skills, from my minimal income of a part-time job. I was the only parent
who took the children to any kind of medical care, the father took them only in a few rare
occasions. These evidences that show the father's repeated conscious negligence and
carelessness to the children's wellbeing was partly withheld by my attorney and the rest
deliberately ignored by the judge. My sole custody was changed to joint legal custody.

Although, one of the reasons for ending our marriage was, endless dispute and
disagreement. The judge ordered us to participate in five co-parenting education together at
the same location, and sixty percent of the cost of the class to be paid by me. It is undeniable,
that the court order is not only unjust but also is adding deliberate effort to boost domestic
violence.

After that, my attorney said I had to pay 5000.00 $ to the court to appeal the order. I
had a phone conversation with another attorney. He sound interested, and he asked who the
judge was. As soon as I told him the name of the judge, He sounded alarmed and said he cannot
take my case and he hung up on me right away. Although, I have a Bachelor of Science, it was
overwhelming to appeal because of the ambiguousness and extreme technicality of the justice
system. I did not appeal the order.

After I start working at Kaiser Permanente, I received a notice to get a gynecology
checkup. The doctor's through head to toe examination, made me feel like I was getting
checked for sale. After that, she took me to her office. The family picture that she has in her

5

office does not look like her. I told her that there is no one that looks like her in her family
picture. She moved the family picture away and she got very nervous. I knew there was
something wrong. Later, I received a notice that say she no longer work for Kaiser Permanente
(Kaiser). Recently, I received a notice that say the primary physician, that I saw for almost three
years, and who knew about my abuse, left Kaiser. And before I got terminated the pediatrician
that was aware of the terror that my children and I were facing and care for my children for
years, left Kaiser as well. A very clear pattern.

There were three toys that my children liked to play with at home, suddenly, around the
same time all three toys are missing one leg or one arm. I asked my children if they know what
happened to the toys. My children had no idea when or how it happened. Terrorizing.

After I got terminated from Kaiser, my fist grader was abused at his school. I start
looking into it. His class was an absolute chaos. Some of the kids have sever behavioral disorder
(biting each other up, out of control...). I went to observe second-grade. The teacher (Ms. Laila
Leikvold) began to teach about USA, the student start condemning (with zeal) the founding
fathers of this nation, without even being asked.

I got my children to be transferred to a different class. My first grader was assigned to
sit next to a girl with a special need. She uses Ipad without an earphone, while the others are
working on reading or writing. I explained this distractive classroom atmosphere to the
principal and the school counselor. I was lectured by the principal about inclusion. This is not
inclusion. Arlington Public School is creating the right environment to raise self-distractive
citizens.

6

The first grade Family Life Education curriculum says "Penis - The organ of the male
reproductive system that he uses when urinating and when having sex". I was provoked and
insulted by Arlington Public School employees, for looking into it, to possibly find a solution.
Recently the superintendent (one of the major oppositions that I faced) got replaced by
another person.

RELEVANT FACTS AND BACKGROUND
I, Plaintiff-Appellant, Makeda Haile worked at Kaiser Permanente Tysons Corner for
around three years, I witnessed twenty-three employees departing with no official farewell.
Although the place is known for its toxic work environment, I have experienced the severest
form of abuse because of refusing quid pro quo sexual request and my Christianity.

I went to the Federal Bureau of Investigation (FBI) at Washington DC, to report the
suspicious extremist activities. I was told to report it to the police. I reported it to McLean
district police station. I was told by the police officer "unless I see someone making a bomb, I
should not worry about any extremist activities" and to get a protective order for my own
safety. I got preliminary protective order for my children and me. The order was dismissed on
September 4, 2019. Because of the defendant's (Mr. Conteh's) explanation of making threat to
cut one of my legs, one arms, and one eye was for the purpose of organ donation. There is no
leg or arm donation. This was my second mockery trial. I filed an appeal and request to a jury
trial. The Fairfax County Circuit Court dismissed the request to jury trial, in favor of unserved
(deliberately withheld) motion to strike Jury Demand on October 28, 2019.1 filed a motion to

7

demand jury trial on the same day. The motion to demand jury trial was denied without any
legal explanation. I filed a motion to reconsider assuming I will be able to explain the stress to
the judge. The motion to reconsider was denied on December 3, 2019.1 am filing a separate
writ for the denial of jury demand lawsuit, in addition to this writ.

While I was going back and forth, to get protective order for me and my minor children.
The abuse and terror at work escalated. I filed a charge with Equal Employment Opportunity
Commission ("EEOC"). After receiving the right-to-sue letter from EEOC. I file complaint to the
United States District Court for the Eastern District of Virginia Alexandria Division on October

18, 2019.

On October 23, 2019, the District Court dismissed the complaint without prejudice, [see
Appendix "B1-B5]. The notice of appeal was filed at the clerk office on November 1, 2019. The
appeal was dismissed On March 12, 2020, by the United States Court of Appeals. This writ
followed.

STATEMENT OF THE CASE

I worked at Kaiser Permanent Tysons Corner, from November 14, 2016 till November
26, 2019 as Medical Technologist. I was hired to work 20 hours a week, from the time I started
working till now, my children and I are being terrorized and I have been abused.

At the beginning, the person who lead the orientation asked each new employee to tell
something different or special that we do outside of work. I said, I read the bible every day. He

8

asked me if I have a favorite verse. I said I don't have a favorite verse, but I have a favorite book
(book of psalm). He asked why, I said no matter what a person is going through, the psalm is
the book that shows the person, that God is with him. I was honestly answering his question.
But Kaiser Permanente was asking each new employee personal questions that have absolutely
no relation to the work that we do, for later use of discrimination.

Evidently the abuse started right away by Ms. Veronica Williams (co-worker) asked me
to have a child from her husband. It was an insult, since I don't even know her much, I said no.
Later, Abdul Conteh (friend of Veronica Williams) was hired for evening shift. After
working for a very short time, he was moved to day-shift the same hours as me. Even if the day
shift was fully staffed, and there was no need to bring additional person, he was moved without
any problem. In contrary, it is quite common to work with short staff. And later he got his work
hours changed to earlier hour, because he was facing heavy traffic. I was denied one-hour
adjustment (on Mondays and Tuesdays only) of my hours so that I don't have to pay 390.00 a
month for work related childcare. What was more disturbing was, some days, he will not come
to work even if he was on the schedule. Others act as if they are unaware, that he is on the
schedule.

On February 11, 2017 Mr. Conteh, Veronica, and I were working together. Veronica
started making fun of my breath. I try to explain to her that I did not eat...She kept on insulting
me and Mr. Conteh kept on laughing. Right after that, I was using the computer that Mr.
Conteh was using, to be able to cover his break. On the computer he left an article that talks
about how people attack others that are better than themselves, because of jealousy. This is

9

deception. After a short while Veronica got transferred, then got promoted. And she started
sending us job instructions. Promotion of hostile behavior by Kaiser Permanente management.

A little later, 2017 Mr. Conteh told me that he will cut off one of my arms and one of my
legs. Even though it was terrorizing and barbaric, I did not know how to address it.

One morning, (2017) when I opened the apartment door to go to work, there was a
completely naked man sitting next to my apartment door. I called 911.
On January 10, 2018 Louise Archer Elementary School, the school of my kindergartner
emailed that the school is in a "Secure the Building" status because of police activity in the
surrounding neighborhood, his younger brother's pre-school was across the street from the
elementary school. It was stressing.

Later the Laboratory director got fired and Dr. Scott R. Backus become the director. He
started coming to the laboratory often, I can tell that he was interested at me because he was
flirting. One day I drop a sample and he came, pick up the sample without wearing PPE and
gave it to me. Another time, he tried to teach me how to use a microscope. I thought he was a
very humble doctor. Later, I was promoted to do paperwork in the office. I started to have
more interactions with him. One day he was in the office alone, eating Mr. Conteh's birthday
food. The lead technologist signaled me to go to the office. I went to the office and started
notifying him, that it is not good, to having both supervisors on vacation. He did not look
interested; I could not explain the toxic environment any further.

After I got promoted to work in the office the abuse completely stopped. Though, I was
hired for twenty hours, I was able to work around thirty hours a week. (I quitted my other on
10

call job) I had to share office with Ms. Amy Kurzdorfer the assistant supervisor. She told me
how her husband promoted her to be an assistant supervisor then divorced her so that he pays
less alimony. Later, Ms. Carmon Lane (supervisor) offered me to take the assistance supervisor
position. I said no. She tried to persuade me by saying, you will be able to afford to send your
children to a private school and you will have flexible working hour which will make your life
easier. She also said that, this is how she become a supervisor and She told me to be kind to her
till she retires. All the persuasions were verbal. There was nothing in writing. While I was
persuaded to accept the promotion, my evaluation was average. It did not make sense to me at
that time.

I asked Azeb Ketema (co-worker) what she thinks about it. First, she said go for it, later
she said, Ms. Lane has asked her to take the position as well. I refused to take the position.
Right away, Abdul became in charge of making schedule. And when I request for a day off, Ms.
Lane stared saying I must ask Mr. Conteh. Then, they said the assistance supervisor position is
offered to Mr. Conteh and they interviewed him. I knew there was something wrong.

Ms. Lane stopped treating me professionally, she also refused to let me work more than
20 hours. I contacted two different Kaiser Permanent locations to work more hours. After each
attempt, Ms. Lane informed me that she is aware of it. One of the managers said, he does not
want to start a fight with Ms. Lane by letting me work some hours at his location.

After a short while, Ms. Lane got fired and Ms. Melynee Gallegos become the
supervisor. Ms. Lane sent a group message, it sounds like; she was dictated on how to treat us.

11

Later, I emailed Dr. Backus to write me letter of recommendation, since he signs the
papers that I worked on. No respond to my email.
On May 7, 2018 Ms. Gallegos told me that I need to do unnecessary retraining, out of
my working hours. As soon as I realize that she was trying to add childcare expense and stress
on me, I emailed the trainer Mr. Brandan Willis (now Ms. Gallegos's supervisor) asking if I can
do it in two days [ Doc. 10]. I got no respond. But Ms. Gallegos start threatening me for going
out of the chain of command.
On May 8, 2018 Ellie Azizoltani wanted to train me. She wanted to use my personal ID
and password (access), I said no. She started yelling at me saying that I asked her to work under
her access. Ms. Gallegos was standing next to us, showing no care of resolving this dispute. I
asked Ms. Askari Masoumeh (co-worker) to show me Dr. Backus's office, to tell him about the
problem. He was not there. I asked the pathologist who opened the door if he left for the day.
Rather than answering the question, she tries to find out why we needed him, she looked very
suspicious. I said, I will send him an email and left. I have over ten years of experience. I have
never seen the pathologist's office being locked, nor another pathologist withholding the
working hours of the director of the laboratory. In other labs, the working hours of the director
is posted on the notice board.
On May 18, 2018 Ms. Gallegos start insulting me by making fun at my breath in front of
Hazel Reyes-Natividad and Anjali Kelkar. I felt sick and went home before the end of my shift.
Ms. Gallegos was upset and called a meeting with the union representative (Ms. Linda Ward) on
May 21, 2018. She retired shortly after. Even though I notified Ms. Ward that I have been

12

bullied and harassed, without any concern to my complaint, she gave me a warning for going
out of the chain of command.

Later, Ms. Gallegos took me to her office, and she apologized about how she treated
me. She said HR is notified, and she asked me if there is anything, she can do for me. She
started acting very professional. She told me that I am changing the dynamics of the lab. But my
evaluation was still average. I did not understand why both managers are giving me an average
on the evaluation while they were admiring my work. I did not want the abuse to restart; I end
up tolerating it. Couple of months later, she started harassing me again.

Sometime around November 2018,1 kept on getting a repeated phone calls with a
frightening voicemail for awfully long time. I called 911 and reported it.
In November 2018, when my children and I were entering our apartment, we found a
notice that say, there is a lurker spotted two different times and we must be vigilant. [Doc. 11]
It was stressful since we reside on the first floor.

Another time in the middle of a conversation Mr. Conteh said, I will have a visitor at my
home. In the middle of another conversation Mr. Conteh's best friend Jafer Mohammed said I
have been robbed. Based on how much they terrorized me at work, I believe they are at least
aware of the terror that I am facing outside of work.

Ms. Gallegos assigned a new employee to work on a busy bench. I started helping him.
Ms. Gallegos stopped me. She said, I cannot help him. Another time I was having a serious
conversation with the same employee and Dr. Backus came, (he normally comes on certain

13

days and only certain hours only) surprised to see him, I walk toward him to see if he needs
something, he walked away touching his nose.

On March 22, 2019 approximately around 5:30 p.m. There was door nock and I looked
through the door hole. There were two African American men, that have Comcast logo on their
outfit, I asked them what they want. Without answering my question, they waved their hand at
me. I stopped my children from opening the door. I waited for a while and checked again
through the door hole to see if I need to call 911, they were gone.
On May 2019 Mr. Conteh made his second treat by making a hand gesture, walking
toward me the same way (rage, and irritation) ISIS does before they kill people. I froze.
On May 2019 three instruments that I was working on broke down at the same time. I
was busy to fix it and to keep up with the workflow. I found a printout on one of the
instruments that I was assigned on. This small instrument runs one patient sample at a time.
And when it is done running, it gives a printout of the result. I took the printout and the sample
that was next to it and resulted it. So that, the doctor can treat the patient based on the result.
Then I found out, it was a reprint from previous patient. I notified the doctor, run the sample,
and corrected the result. Even though, I was the only person assigned to work on this
instrument, as soon as my focus is shifted on fixing the instruments, Mr. Conteh reprinted an
old result and went home without saying anything to me. I sent an email to Ms. Gallegos. No
response. The next day when I try to confront Mr. Conteh, he said "he is just a messenger". A
couple of days later, I wanted to print the email, for my documentation. It is not in my email
anymore. I did not delete this email.

14

On June 16, 2019 Mr. Conteh walking toward me said, he will cut one of my legs, one of
my arms and asked which one of my eyes works better. I told him that, this is his third time, and
he needs to stop. I send an email about the threats to Ms. Gallegos, Mr. Wills, Cheryl L. Fox
Ward (Mr. Willis's supervisor) Paula J Watts (HR representative) Dr. Scott Backus (Laboratory
director). [Doc. 12] After that, I notified Kaiser Permanent's security. Next morning, I reported
the threat and the suspicious activities to McLean District police station. [Doc. 13] I was told by
the police officer "unless I see someone making a bomb, I should not worry about any extremist
activities and to get a protective order for my safety.
After I came back from the police station, Mr. Gallegos took me to her office and said
that Dr. Backus will not be working with us anymore. I did not understand why he left right
after I went to the police. Later, I start seeing him. I questioned if Dr. Backus is involved.

Ms. Gallegos tried to convince me that Mr. Conteh is harmless. Then she said that I must
learn to stand up for myself and defend myself. After that she started questioning my mental
health. This is beyond promotion of workplace violence.
After I went to the police, Jafer Mohammed (Mr. Conteh's friend) showed me with his
hand, as if he is cutting his neck, while telling me that he draws full blood sample tube. After
that Mr. Conteh repeatedly called him "my brother". In the middle of another conversation Mr.
Conteh said, "we have a tough cookie" and also, he said "how long can you keep up" he spoke
these two sentences loud enough that I could hear, but not the rest of the conversation.

On June 20, 2019 Ms. Gallegos send me an email that say, I made a mistake on
competency [Doc. 14,15] This test is done while the patient is on a surgery table (in the middle

15

of a surgery). The result is used to determine how much tissue the surgeon must remove. I
reviewed the procedure, and I send her an email saying I did not make a mistake. She emailed
me a copy of the procedure. I found out that she was using a procedure from a different
location. The location uses different instrument and different methodology. When I emailed
her back with the explanation, she did not respond. What she was doing is, overloading me
with extra work on the busiest hour and on the busiest day, so that I will have a bigger chance
of making mistake or misleading me to use a wrong procedure so that I can make a mistake,
and send wrong result to the doctor, which will consequence to a surgical error.
On July 9, 2019 after meeting with Ms. Watts, Ms. Calloway (HR representatives), and
Ms. Gallegos. I was put on half day paid leave; [Doc.16] I was relieved because Mr. Conteh was
working. But on July 29, 2019 [Doc. 17] even though there were four people to work on the
schedule, Ms. Azizoltani (Elle) did not show up, Anjali went out of the laboratory. Mr. Conteh
and I were alone in the laboratory. They are creating confusion and deception.
On August 5, 2019, for the first time at Kaiser Permanent, my user ID and password did
not work on an instrument. Per Ms. Gallegos's request, I had to switch to work on a different
instrument, then I was responsible to process blood for transfusion. While I was processing to
release blood to a nurse, there was only one small pop-up that say the blood is non-irradiated.
And it gave me an option to override. If I missed that "only" warning, I would have released the
wrong blood to be transfused. Later I was told that by mistake wrong blood was sent to us and
Tysons Corner's blood was sent to a different location. The possible risk of wrong blood
transfusion is cardiac arrhythmias and cardiac arrest (the member can die from it if it is not
treated right away). Even if I send detailed email to upper management on what happened and
16

what should be corrected to avoid this kind of mistake. No respond. [Doc. 18] I was setup as a
target by using a crack in the system with absolutely no concern to the patient's health and or
life.
Mr. Asrat (co-worker) told me a story and said, "this is a slow death". And Ms.
Franchesca after adding chemical on parasite, said "this is a slow death". They both said this a
couple of days apart. Terrorization.
Although Mr. Conteh admitted making the threat. The HR reps. (Ms. Watts and Ms.
Calloway) become willfully blind to the company's policy and his admitting the truth. They
interviewed Mr. Conteh's friends and said, based on their investigation they did not find threat.
But if the court issued a protective order, they would transfer one of us to a different location.
They called for another meeting, on November 18, 2019 and said they will see if they are able
to transfer me to a different location. Willful blindness.
Every manager orders food when the laboratory is inspected. On the 2019 inspection,
Ms. Gallegos said, she did not order food because of Ramadan (Muslim's fasting time). This is a
clear discrimination and violation of religious freedom.
When I was doing an online training for a new chemistry instrument, I had an IT
problem. Therefore, I was not able to do most of the online training. I told Ms. Gallegos, she
said, it is fine. When the in-person trainer came to our location, I was told by the trainer that
Quality Control and Calibration will not be done by day shift. Therefore, I did not get QC and
Calibration training, I did not get adequate general training as well. After we went live, there

17

was multiple needs to do QC and Calibration. I had to constantly ask others what to do, and
follow what they told me to do, without fully understanding what I was doing.

People follow my children and I for years. On September 2, 2019, we were at National
Harbor. There was an African American man following us, while taking pictures and video of us.

On September 3, 2019 I send an email to Ms. Gallegos for a clarification of another
unnecessary retraining. [Doc 19, 20, 21] Rather than answering, she threatens to put me on
unpaid leave. When I ask her verbally, she just ignores me or gets upset and start yelling.

When the laboratory was busy, we could miss break to be able to report test results
faster. But on September 10, 2019 Ms. Gallegos send me an email saying that I am not going to
get paid for missed break, but at the same time she repeatedly complains that I am taking too
long to result tests. She is indirectly forcing me to work for free. [Doc 22, 23, 24,25] She also
said, I made a mistake on a competency that had a misleading true or false question. She is
intentionally hiding critical information on these questions.
On September 2019 Ms. Gallegos put me to be trained by Mr. Mohammed (Mr.
Conteh's friend). The next day when I was working on a different work bench, she gave me to
do more paperwork that was part of the previous day training. I emailed her saying, the
additional work that she is giving me, on top of the work that I was responsible for the day is
unbearable. Rather than addressing the problem, she added more work and accused me of
being late on doing a survey that Veronica emailed on July 26, 2019. Even though the "unclear"
email that Ms. Gallegos sent (on September 6, 2019) say that it must be done by September 10,

18

2019.1 went around and asked others, the two people that I asked said, they did it after their
processing training. And the other two did not do it yet, she complains only on me.
Mr. Conteh never assigned me work, but on September 21, 2019 I found that Mr.
Conteh left me a proficiency [Doc. 26,27] to do and also he wrote a note on the board that say,
the day of completing for policy tech reviews is 9/18/19. In addition, I had to finish a previous
competency for urine unknown sample, and white blood cell and red blood cell identification.
And Ms. Gallegos send me another email that say only Cell Identification [Doc. 28, 29] I am
loaded with unbearable amount of work on top of my daily responsibility, and then she
questions my mentsl health and she tells me that I am having problem following instructions.
On September 23, 2019 Ms. Gallegos stopped me from getting (three-sentence)
character letter [Doc. 30] to get signed by co-workers, for the protective order. First, she said, I
cannot do it in the building, then she said I must be off the clock and the person who is signing
the letter must also be off the clock. My start & end hours are different from others, which will
make it impossible to get the character letter signed. Mr. Conteh's character letter was signed
while everybody was working without any problem. Discrimination.

In September 2019 while Mr. Mohammed was training me. He called a patient and he
told me to help her. Normally, ever employee helps the patient that he/she called. Anyhow, this
patient was there for a urine drag screen testing. She had two children with her, probably a
four and three years old. The patient left the younger child outside and went into the restroom
to collect urine with the older child. For urine drug screen collection, patients are not allowed
to take anything to the restroom with them, not even their purses. When I asked Mr.

19

Mohammed how we let her go to the restroom with her child, he said there is nothing we can
do. I email this to upper management. I was told, it will be on the next meeting. I did not hear
anything about it anymore. There are numerous devastating stories about prescription drug
overdose and or prescription drug abuse. Management should have taken a precise action to
decrease the chance of compromised sample collections. This is negligence and
incompetentness of the laboratory and management to the public's health and wellness.

Ms. Gallegos repeatedly gave me hard time regarding my cell phone. She tried to force
me to leave my cell phone in my locker or in my car. I explained to her that, the only number
my minor children have memorized is my cell phone. After a lot of back and forth, she called a
meeting with Mr. Willis, and Mr. Brad. I was told that I had to have my phone on vibrate and if
only there is true emergency (true emergency was defined by them if I am getting a repeated
calls) I had to step out of the laboratory and then can answer my phone. On November 2019
Anjali (co-worker) took pictures using her phones, in the middle of the lab, while Ms. Gallegos
standing next to her, Ms. Gallegos gave me a look that was like, so what? And a couple of days
later, Franchesca Cole, Jessica Kim and others were in the middle of the lab taking pictures with
their phones while I was working. I send an email to upper management and HR, no response.
Abuse and discrimination.

Semen analysis has the easiest work. Everybody who works day shift is trained to do
semen except me. Ms. Gallegos asked me if I want to be trained. I said yes, never got trained.
The things that I want to do and are easier, I will be denied. And the things that I say is
overwhelming, will be made worst. Because of the endless abuse, terrorization and retaliation
after I start working at Kaiser Permanente, my health, and my life at work and outside of work
20

start to deteriorate on August 24, 2019,1 send an email to the upper management saying I am
overwhelmed. [Doc. 31,32,33,34] No respond.

Continues Education is an additional learning activity on the topic that are covered in
school or at work. I did not learn semen analysis in collage or had any training at work. I was
assigned to do Continues Education for semen analysis by Ms. Gallegos. She refused to email
me the link and told me to write it down, I question the legitimacy of the website. I send an
email asking for the link. She sent me a link for a different training, and she said that she
already sent me a link for the semen, which was not true. [Doc. 31,32,33,34] later she said, "she
is not going to email me the link" and came to the computer that I was using and googled the
website and told me to start with semen analysis. The lesson starts with a big picture of penis, it
was sexual. A violation of my first amendment right (Right to religion)
On September 23, 2019 Ms. Gallegos took me to her office and interrogated me, for
around two hours, by saying, did you violate HIPPA. And when I say how? she said, you must
answer yes or no (yelling) she said yes because you have member's information in your
personal locker. She said, it has been reported and you will be investigated. Then she questions
my mental health. And then she said, I know what you are trying to do, you are trying to get Mr.
Conteh fired. And she stared threatening me by saying that she was asked to transfer to a
different location, she refused it, she said she will not go nowhere. If I am working at Tysons, I
will be working under her for many years. And I am not going to like it. After the interrogation,
I went for my lunch break. Even though I was hungry, I could not eat my lunch. I came back to
work. I was training by Mr. Mohammed. Ms. Azizoltani came to me and said she rather die than
being in this situation. She was sincere. Then she stopped coming to work for a while, I called
21

her repeatedly. She did not respond. Then, she answered her phone and said she was told by
Ms. Gallegos not to answer my call or to have any contact. It is a very toxic environment, but
people are scared to speak up, because of the severe retaliation and I also believe that there is
more crime going on at Kaiser Permanente Tysons Corner.

The next day (September 24, 2019), I filed a charge with Equal Employment Opportunity
Commission ("EEOC") for discrimination in employment due to religion in violation of Title VII of
the Civil Rights Act of 1964, as amended.

On September 27, 2019 Ms. Gallegos came from behind, pick up a member's sample
and said, this is hemolyzed, it needs to be redrawn (yelling). What she meant was, because of
the poor quality of the blood the test result will be elevated. I try to explain to her, she did not
listen. I print the procedure and took it to her office. She snatched it from my hand and throw it
in the trash. The test result was normal. She was trying to find an excuse to yell at me and to
abuse me. At this point it was too much, so I emailed a final complaint to Management and HR.
No response. [Doc. 35, 36] I emailed additional complaint on October 5, 2019 No response, but
Ms. Gallegos corrected the usage of my vacation hours to pay me for a legal holiday.

On October 19, 2019 I submitted the reimbursement form for retraining (outside of
work hours). Even though others got reimbursed, Ms. Gallegos denied the usage of my
available education hours, that the company put in place for such purpose. [Doc. 37] I did 4
hours of retraining (from personal time) without getting payed, while others are reimbursed.

Another time, Ms. Azizoltani, walking toward me said, "all what you must do is submit" I
said, I have no problem submitting to what is right.

22

On November 5, 2019 at 11:00 a.m. Franchesca Cole came to me and said I need to
transfer urine to a red top tube, she said it is a new procedure. I could not find the procedure, I
asked Ms. Gallegos what Franchesca made me do was right, and if she has the new procedure.
Ms. Gallegos said she cannot answer that. [Doc. 45]

On November 13, 2019 around 10:00 a.m. Anjali and Hazel took their break at the same
time. Mr. Conteh and I were again alone in the laboratory. I left the middle door open.
Franchesca come and closed it. When I tell her that I do not feel safe being alone with Mr.
Conteh. she said," you are not the only person in here" (yelling). I emailed it to upper
management. Ms. Watts respond by saying, she will have a meeting with Ms. Cole but till then
she said, "refrain from sending any additional emails". A violation of my human right [Doc. 43].

For years, Mr. Conteh, Anjali Kelkar, Hazel Reyes-Natividad, Renato Castillo, Ms. Damtae
ask me question and when I answer they will go away touching their nose. Intimidation.

I filed (as pro-se) an employment discrimination complaint based on religion and sex, in
violation of Title VII of the Civil Rights Act, on October 18, 2019 to the United States District
Court for the Eastern District of Virginia Alexandria Division. Case No. l:19-cv-1330(LMB/TCB).
The complaint was dismissed, the reason was, minute grammatical errors at the complaint and
willful blindness to the evidences that was presented. And my right to religion was questioned. I
filed a notice of appeal on November 1, 2019. And the informal brief was filed on November 25,
2019 to the United States Court of Appeals for the Fourth Circuit. On March 12, 2020, the Court
of Appeals dismiss the case, this writ followed.

23

Because of exacerbated intentional abuse and terrorization, I lost appetite, lost a lot of
hair, and weight. I saw at least two doctors because of the abuse. On October 7, 2019 I saw a
doctor because of severe stomach pain, he ordered me anxiety medication. I saw a
gastroenterologist after that, he said the same thing and wanted me to get a colonoscopy as
well.

After the days that I have been severely abused and harassed, I needed a day or two to
recover. And I will end up using my vacation hours, which I normally use for no school days. This
added another work-related childcare expense (over my income) and loose of quality time with
my children (increased time of my children being raise by strangers against my will), in addition
of the suffering that I endured.

On November 30, 2019 I send an email to upper management and HR saying, unless an
appropriate safety measure is taken, I am not safe to go to work. One month later, on
December 31, 2019 management offer me a transferred to a laboratory that is near to Mr.
Conteh's residence and he also used to work there. He still has good friends at this location. If I
accept the transferred, in addition to the abuse, I had to pay more for work related childcare,
which I could not afford. And it is impossible to use public transportation to commute to this
location. Management and HR are clearly working to make my life unlivable. I declined the offer
explaining my reasons. I was terminated, effective January 18, 2020.

The retaliation for seeking justice (starting with going to the police and EEOC) and
refusing Dr. Scott Backus's quid pro quo request put me and my family in unmeasurable stress,
which lead to deterioration of our livelihood. It also made us financially dependent.

24

REASONS FOR GRANTING THE PETITION
Let me start by explaining why I am doing this for the second time. I filed one writ for
this case and for "the jury trial demand" case on June 3, 2020, since they are abusing me
unitedly. After days of repeated attempt to find out the status of the writ. I was told through
brief phone conversation; I must file two separate writs (no email). I received the return of the
first writ that I filed on June 16, 2020. The box was completely open and there was no written
notice about refiling the two writs separately in it.
This Court should grant the writ not only to provide the necessary relief to the violations
this case presents with extensive supporting evidence of terrorization, discrimination because
of religion, and retaliation for seeking justice (started with filing a charge with EEOC and going
to police) and for refusing quid pro quo request. But also, to take the responsibility to modify
the civil justice system that become "a safe haven" to shamelessly violate the civil and
constitutional right of "the people".

This case is an evidence that the civil justice system's extremely complicated technicality
to be practiced by the public, in the contrary is used as a means for the Nourishment of wellstructured network of educated-criminals, by bribing folks in our courts that are fearful, selfish
ambitioned and or ill-intentioned. These corrupted authorities in our courts will be willfully
blind to the evidences, the Law, the Rules, and the courts' notice to shamelessly violate
unalienable and constitutional right to " life, liberty, or property... the equal protection of the
laws". U.S. Const. Amend. XIV.

25

In addition to the other type of abuse, I was being insulted because of my breath. I saw
doctors (at least two different time) to check if there is any abnormal bacteria growth in my
mouth. It was negative. After Mr. Conteh's third threat of telling me he will cut one of my legs,
my arms and asking me which one of my eyes works better (on June 16, 2019). I reported the
threat and the other suspicious extremist activities to McLean District police station. I was told
by the police officer to get protective order for my own safety and not to worry about any
suspicious extreme activities unless I see someone make a bomb. I got preliminary protective
order for my minor children and me.

The abuse exacerbated after seeking legal intervention and refusing quid pro que
request. I filed a charge with Equal Employment Opportunity Commission ("EEOC") for
discrimination in employment due to religion in violation of Title VII of the Civil Rights Act of
1964, as amended. The EEOC worker told me to find another job. His advice was unfitting, I told
him that I am also terrorized outside of work. I received the right-to-sue letter from EEOC on
October 03, 2019. [Doc. 1,2,3,4]

On September 25, 2019 I contacted Pro-bona attorney (Mr. Christopher Rau), first he
told me to find another job. Then rather than giving me legal advice, he started insulting and
intimidating me by asking, how I come to this country, what my emigration status is, passed
that he told me how he had an Ethiopian client and how she sued her employer, wan the
lawsuit and then she lost her mind and become homeless. After that, I contacted Legal Services
of Northern Virginia, they said they cannot help me, by giving me unclear excuses.

26

On October 18, 2019 I filed (as pro-se) an employment discrimination complaint on the
basis of religion and sex, in violation of Title VII of the Civil Rights Act of 1964, as codified, 42
U.S.C. § 2000e to 2000e-17 actions including Harassment and terrorization, to the United States
District Court for the Eastern District of Virginia Alexandria Division. Case No. l:19-cv1330(LMB/TCB)

The Court dismissed the complaint, stating that the complaint is below the formal
pleadings standard "internal quotation marks omitted...fails to state a claim on which relief can
be granted..." and "...fails to describe any facts suggesting that the mistreatments she alleges at
work is in any way linked to her religion." And "The only factual allegations that contain even
any arguable, tenuous link to religion are plaintiffs claims that she is a practicing Christian, she
voluntarily told an orientation leader...."[Appendix B1-B5]

I do not comprehend what the judge means by saying "voluntarily told the orientation
leader", I am unaware that I needed to hide my Christianity in The United States of America.
The judge violated of my first amendment right. This kind of ill-intentioned judges put our civil
justice on a slippery slope.

What happened at the orientation was, Kaiser Permanente asked personal questions
that have absolutely no relation to the work that we do, for the soul purpose of finding critical
information about new employees that will later be used for discrimination.

Evidently, the abuse began right away by Ms. Veronica Williams asked me to have a
child from her husband. This is an insult since I do not even know her that much. After that Mr.
Conteh (Veronica's friend) got employed for evening shift and moved to working day shift, the

27

same hours as me. Even though there was no need to bring additional employee to day shift. In
contrary, it is quite common to work with short staff since it is difficult to get a replacement
when people leave. Then, his hours were adjusted to earlier hours because he was facing
traffic. I have been denied one-hour adjustment of my hours (on Mondays and Tuesdays only)
so that I do not have to pay 390.00 $ a month for work related childcare. Then, Mr. Conteh and
Ms. Veronica verbally abused me together. At the same time, my family was being terrorized
outside work.

As soon as Dr. Scott Backus became the laboratory supervisor and started flirting with
me, I was promoted to work in the office and the abuse and terror completely stopped. And
then, after I decline to take the assistance supervisor position, the abuse restarted, and get
exacerbated after I completely avoided eye contact with Dr. Backus and started seeking legal
protection and justice.

The complaint has overwhelming evidence that, what I am dealing with is not a
misconduct by co-workers or managers, I have tolerated numerous misconducts because of my
Christianity (because of Roman 12:18 that say "If it is possible live at peace with everyone") that
are not mentioned on this case. There is a big difference between misconduct and violation of
rights, and between tolerance and being silent. We cannot use these words interchangeably.
And, I am not going to be silent to this violation my civil and constitutional rifiht. What is
presented on this case is a violation of Title VII of the Civil Rights Act of 1964, as amended. See
Meritor Savings Bank v. Vinson, 477 U.S. 57 (1986) "The Court held that Title VII was "not
limited to 'economic' or 'tangible' discrimination and found that the intention of Congress was

28

"to strike at the entire spectrum of disparate treatment of men and women' in
employment....".

Finally, my inability to write a "perfect" complaint, cannot be used as justification for
denying justice and relief. If this is the case, the constitution should have said ... equal
protection of the laws only for the ones that file perfect complaint, not
"...No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of life,
liberty, or property, without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws." U.S. Const. Amend. XIV
The judge deprived me of, my constitutional right by being willfully blind to the evidence
presented on the complaint and used minute errors as an excuse to intimidate and to silence
me on the journey to modern slavery. This denial of the necessary legal intervention and relief
prolonged the deterioration of my and my children's livelihood.

I filed a notice of appeal on November 1, 2019. While I was writing the informal brief for
the United States Court of Appeals, I was able to better understand how I was a victim of
hostile work environment because of sex (Quid Pro Que) and retaliation. On November 21,
2019 I filed the second charge of retaliation and hostile work environment because of sex (quid
pro quo) to Equal Employment Opportunity Commission ("EEOC"). EEOC gave me the second
right- to -sue letter. [Doc. 6,7,8,9j And the informal brief was filed on time.

On March 12, 2020 the United States Court of Appeals for the Fourth Circuit dismiss the
appeal for lack of jurisdiction saying "Because the district court dismissed Haile's complaint
without prejudice to her filing an amended complaint, we conclude that the court's order is
neither a final order nor an appealable interlocutory or collateral order." [Appendix A1-A3]
29

Another willful blindness. The District Court's order to dismiss the complaint (October
23, 2019). [Appendix B1-B5] says, "To appeal this decision, plaintiff must file a written notice of
appeal with the Clerk of the Court within thirty (30) davs". [Appendix B5] I followed this clear
and unambiguous court order. The Court of Appeals dismissed the appeal that is filed according
to the order.

Giving instruction, procedure, and order (judgment) by court and then, the same
document and order is used by different judge as justification to dismiss a case of seeking
protection of civil and constitutional right is a mockery. This is a violation of the Fourteenth
Amendment of the United States Constitution and Title VII of the Civil Rights Act of 1964, as
amended. And needs to be addressed by this court and by the Department of Justice, since it is
against the mission of the Department of Justice, which is to ".... bring justice to all Americans".
These forgoing cases show how courts ruled on this matter, Nichols v. Frank 42 F.3d 503
(9th Cir. 1994) "under Title VII, it is an unlawful employment practice for an employer to
discharge any individual, or otherwise to discriminate against any individual with respect to
fherlcompensation, terms. Conditions, or privileges of employment, because of such
individual's

sex..." 42 § U.S.C.2000e-2(a)(l). Karibian v. Columbia Univ., 14 F.3d 773, 111 (2d

Cir. 1994), "...an employer is liable for the discriminatory abusive work environment created
by a supervisor if the supervisor uses his actual or apparent authority to further the
harassment, or if he was otherwise aided in accomplishing the harassment by the existence of
the agency relationship." Bihun v.AT&T Information Systems, Inc. 13 Cal.App.4th976. (1993).
"The court held that sexual harassment in the workplace was a personal injury...". " 'An injury is
personal when it impairs the well-being or the mental or physical health of the victim.'" (O'hara
30

v. Storer Communications. Inc., supra. 231 Cal.App.3D at P. 1118, 282 Cal.Rptr. 712, quoting
Miller v. Carnation Co. (1977) 39 Colo.App. 1,564 P.2d 127,132.) It is beyond dispute sexual
harassment in the workplace has this effect. As one commentator familiar with the subject put
it, Sexual harassment exists in terribly harsh, ugly, demeaning, and even debilitating wavs. It is
a form of violence against women as well as a form of economic coercion."

Below are some of the abuses that made me demand safety measures to be taken by
management to be able to go back to work without jeopardizing my health and life.
On October 30, 2019 Franchesca Cole hit me on my back, I was unaware of her coming
near me, because she come from behind. Right after she hit me, I saw her going around putting
sticker on others' back. A couple of days before that, she was giving me unprofessional facial
expression and using provoking words when I pass by her. This causing an intentional infliction
of emotional distress, which is tort. It is crime. [Doc. 38] I email HR and Management saying
that, the abuse that I was facing is escalating to physical. On a meeting with HR, I was asked
again and again to explain what happened and how I felt, rather than taking proper action.

On November 4, 2019 as soon as I start work, Ms. Gallegos came to me and said, it is
offensive and bulling to email court documents to Mr. Conteh.[Doc. 47] I told her that I do not
know his address (I received his address change notice on May 27, 2020) and I was informed to
serve him by email. She said it is harmless when he threatened me but bulling when I emailed
him a court document. This is discrimination. Ms. Watts (HR representative) responded to this
issue by saying, I have an option of hand delivering the court papers to Ms. Conteh outside of
work. This is an evidence that Ms. Watts is promoting terror and violence.

31

HR and management not only fail to take an action to my repeated complaint but also
violated their own policy.
I.

Threats and violence in the workplace policy, that says "All employees who
obtain a protective or restraining order which lists any KP premises as protected
areas should provide a copy of the order to the local facilities manager and their
Human Resource representative." They violate the policy by not take a copy of
the protective order.
Harassment-free work environment policy, that says "an employee is not
required to complain to his or her supervisor or manager..." Ms. Watt emailed
me, "...please refrain from sending any additional emails...going forward, emails
should include me, Melynee (Ms. Gallegos), your shop steward and Melynee's
manager, Brandan." A violation of my right to seek justice and protection, and
another violation of the company's policy.

On November 16, 2019 I emailed their violation of the company's policy to upper
management and HR, no respond. I also told Ms. Watts and Ms. Calloway, Ms. Gallegos, and
Mr. Willis on a meeting that they violated the policy and they are watering down (being willfully
blind) the abuse that I was facing. [Doc. 42] they did not respond.

Ms. Gallegos denied paying me using my available education hours that the company
put in place for such purpose [Doc. 37], I did 4 hours of retraining for free, while others
reimbursed. Discrimination.

32

I was assigned to do Continues Education for semen analysis by Ms. Gallegos. She
refused to email me the link and told me to write it down, I question the legitimacy of the
website. [Doc. 31,32,33,34] later she came to the computer that I was using and googled the
website and told me to start with semen analysis. I start the video; The lesson starts with a big
picture of penis and was not semen analysis, it was sexual. This is against my religion. A
violation my first amendment right.

Before I got terminated Elbethel Damtae tried to convince me to let it go. I told her this
form of abuse cannot happen in America. She said what difference can "one" person make. I
told her one person can make a big difference. Example, Martin Luther King.

I believe it was unsafe to go to work any longer, therefor on November 30, 2019.1 send
an email that demands an appropriate safety measure to be taken. One month later, on
December 31,.2019 management offer me to transfer to a laboratory in Woodbridge (1413
Potomac Mills Rd, Woodbridge, VA). I was told by management, if I do not accept the transfer, I
will be terminated. This lab is located near Mr. Conteh's home at that time (13175 Makina Way,
Woodbridge VA) also, he previously used to work there, and he still has good friends there. If I
accept the transfer, in addition the abuse, I had to pay more for work related childcare (I could
not afford). Furthermore, it is impossible to use public transportation to commute to this
location. Evidently management and HR are working to make my life unlivable. I declined the
offer explaining my reasons. I was terminated, effective January 18, 2020.

Because of the exacerbated intentional abuse and terrorization, I lost a lot of hair,
appetite, and a lot of weight. On October 7, 2019,1 saw a doctor because of severe stomach

33

pain. He said I should start taking anxiety medication. A saw a gastroenterologist afterward, he
said the same thing as the first doctor and wanted me to get a colonoscopy as well.
Additionally, my children and I are suffering unmeasurable emotional, psychological; financial
stress. After I got terminated my family has no choice but become a burden, by becoming
financially dependent.

My family's unalienable human and constitutional right was violated repeatedly by
bribed and ill-intentioned employees of the lower courts. The courts have no transparency,
accountability, and there is no factual or legal explanation for their dismissal of my repeated
attempt of seeking relief and justice. Their willful blindness to the evidences presented and
their unlawful court orders was justified by using insignificant technical errors.
On June 5, 2020 I received an order from the United States District Court for the Eastern
District of Virginia to refile an amended complaint. [Doc. 48] This case is not only about seeking
personal relief and justice, but it is an evidence that demonstrates the error that enriches the
rising of corruption in our civil justice system. Therefore, it has huge importance to the public.

I believe this certiorari puts in perspective the future existentialitv of justice in our civil
courts for all Americans, which is against the mission of the Department of Justice (DOJ) "...
ensure fair and impartial administration of justice for all Americans." It is essential to make a
deliberate effort to modify the civil court system, so that it can be accessed or practiced by the
public. (And at a minimum to have voice recording in the court rooms for accountability and
transparency). If not, it is undeniable that lawlessness will become the Supreme Rule of our civil

34

courts because of the increasing number of criticizes that are being silenced by corrupted and
ill-intentioned judges on the journey to modern slavery.

I request to be granted a compensation of 800,000.00 $ for violation of my civil and
constitutional right, and punitive damages based on the length of time of such abuse and
number of employees and member Kaiser Permanente Tysons Corper has.

The case presents overwhelming evidences of how the system is being exploited for
manufacturing educated criminals, and to shatter each citizen, individually, which is
infringement of the foundation that makes this nation great. This is against the values that this
Nation protects, human life, liberty, and freedom, also against the foundation of the civilization
that made America great. This writ of certiorari petitions to the Supreme Court of U.S., to the
Department of Justice and to the conscience of this Nation, for the absolute necessity to correct
this systemic error before it is used by the enemy of this nation for the ultimate distraction.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

35

